<html>
<title> - H.R. 1119, THE FAMILY TIME FLEXIBILITY ACT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
                    H.R. 1119, THE FAMILY TIME FLEXIBILITY ACT
           __________________________________________________________
           __________________________________________________________


                                   HEARING

                                  BEFORE THE
                     SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                                   OF THE

                         COMMITTEE ON EDUCATION AND
                               THE WORKFORCE

                          HOUSE OF REPRESENTATIVES

                        ONE HUNDRED EIGHTH CONGRESS

                                FIRST SESSION
                                  ________

               HEARING HELD IN WASHINGTON, DC, MARCH 12, 2003
                                  ________

                              Serial No. 108-7
                                  ________

              Printed for the use of the Committee on Education
                              and the Workforce






  87-722 pdf
For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 512-1800
FAX: (202) 512-2250  Mail: Stop SSOP, Washington, DC 20402-0001




                    COMMITTEE ON EDUCATION AND THE WORKFORCE
                        JOHN A. BOEHNER, Ohio, Chairman

THOMAS E. PETRI, Wisconsin					GEORGE MILLER, California
CASS BALLENGER, North Carolina				DALE E. KILDEE, Michigan
PETER HOEKSTRA, Michigan					MAJOR R. OWENS, New York
HOWARD P. "BUCK" McKEON, California			DONALD M. PAYNE, New Jersey
MICHAEL N. CASTLE, Delaware				ROBERT E. ANDREWS, New Jersey
SAM JOHNSON, Texas					LYNN C. WOOLSEY, California
JAMES C. GREENWOOD, Pennsylvania				RUBE?N HINOJOSA, Texas
CHARLIE NORWOOD, Georgia				CAROLYN McCARTHY, New York
FRED UPTON, Michigan					JOHN F. TIERNEY, Massachusetts
VERNON J. EHLERS, Michigan					RON KIND, Wisconsin
JIM DeMINT, South Carolina					DENNIS J. KUCINICH, Ohio
JOHNNY ISAKSON, Georgia					DAVID WU, Oregon
JUDY BIGGERT, Illinois					RUSH D. HOLT, New Jersey
TODD RUSSELL PLATTS, Pennsylvania				SUSAN A. DAVIS, California
PATRICK J. TIBERI, Ohio					BETTY McCOLLUM, Minnesota
RIC KELLER, Florida					DANNY K. DAVIS, Illinois
TOM OSBORNE, Nebraska					ED CASE, Hawaii
JOE WILSON, South Carolina					RAU?L M. GRIJALVA, Arizona
TOM COLE, Oklahoma					DENISE L. MAJETTE, Georgia
JON C. PORTER, Nevada					CHRIS VAN HOLLEN, Maryland
JOHN KLINE, Minnesota					TIMOTHY J. RYAN, Ohio
JOHN R. CARTER, Texas					TIMOTHY H. BISHOP, New York
	MARILYN N. MUSGRAVE, Colorado
	MARSHA BLACKBURN, Tennessee
	PHIL GINGREY, Georgia
MAX BURNS, Georgia

            Paula Nowakowski, Chief of Staff
      John Lawrence, Minority Staff Director


        SUBCOMMITTEE ON WORKFORCE PROTECTIONS
        CHARLIE NORWOOD, Georgia, Chairman

JUDY BIGGERT, Illinois, Vice Chairman				MAJOR R. OWENS, New York
CASS BALLENGER, North Carolina				DENNIS J. KUCINICH, Ohio
PETER HOEKSTRA, Michigan					LYNN C. WOOLSEY, California
JOHNNY ISAKSON, Georgia					DENISE L. MAJETTE, Georgia
RIC KELLER, Florida					DONALD M. PAYNE, New Jersey
JOHN KLINE, Minnesota					TIMOTHY H. BISHOP, New York
MARSHA BLACKBURN, Tennessee



















Table of Contents



OPENING STATEMENT OF CHAIRMAN CHARLIE NORWOOD, SUBCOMMITTEE ON 
WORKFORCE PROTECTIONS, COMMITTEE ON EDUCATION AND THE WORKFORCE
	2

STATEMENT OF VICE-CHAIR JUDY BIGGERT, SUBCOMMITTEE ON WORKFORCE 
PROTECTIONS, COMMITTEE ON EDUCATION AND THE WORKFORCE	3

OPENING STATEMENT OF RANKING MEMBER MAJOR OWENS, SUBCOMMITTEE 
ON WORKFORCE PROTECTIONS, COMMITTEE ON EDUCATION AND THE 
WORKFORCE	4

STATEMENT OF HOUSTON L. WILLIAMS, CHAIRMAN AND CEO, PNS INC., SAN 
JOSE, CA, TESTIFYING ON BEHALF OF THE U.S. CHAMBER OF COMMERCE	7

STATEMENT OF TERI MARTELL, ELECTRICIAN AND INSTRUMENTATION 
MECHANIC, EASTMAN KODAK COMPANY, ROCHESTER, NY	9

STATEMENT OF ELLEN BRAVO, DIRECTOR, 9 TO 5, NATIONAL ASSOCIATION OF 
WORKING WOMEN, MILWAUKEE, WI	11

STATEMENT OF JOHN A. DANTICO, PRINCIPAL OF COMPENSATION/HR 
CONSULTING, HR GROUP, NORTHBROOK, IL, TESTIFYING ON BEHALF OF THE 
SOCIETY FOR HUMAN RESOURCE MANAGEMENT (SHRM)	13

APPENDIX A - WRITTEN OPENING STATEMENT OF CHAIRMAN CHARLIE 
NORWOOD, SUBCOMMITTEE ON WORKFORCE PROTECTIONS, COMMITTEE ON 
EDUCATION AND THE WORKFORCE	33

APPENDIX B - WRITTEN STATEMENT OF VICE-CHAIR JUDY BIGGERT, 
SUBCOMMITTEE ON WORKFORCE PROTECTIONS, COMMITTEE ON EDUCATION 
AND THE WORKFORCE	37

APPENDIX C - WRITTEN STATEMENT OF HOUSTON L. WILLIAMS, CHAIRMAN AND 
CEO, PNS INC., SAN JOSE, CA, TESTIFYING ON BEHALF OF THE U.S. CHAMBER OF 
COMMERCE	41

APPENDIX D - WRITTEN STATEMENT OF TERI MARTELL, ELECTRICIAN AND 
INSTRUMENTATION MECHANIC, EASTMAN KODAK COMPANY, ROCHESTER, NY	47

APPENDIX E - WRITTEN STATEMENT OF ELLEN BRAVO, DIRECTOR, 9 TO 5, 
NATIONAL ASSOCIATION OF WORKING WOMEN, MILWAUKEE, WI	51

APPENDIX F - WRITTEN STATEMENT OF JOHN A. DANTICO, PRINCIPAL OF 
COMPENSATION/HR CONSULTING, HR GROUP, NORTHBROOK, IL, TESTIFYING ON 
BEHALF OF THE SOCIETY FOR HUMAN RESOURCE MANAGEMENT (SHRM)	59

APPENDIX G - SUBMITTED FOR THE RECORD, STATEMENT OF CONGRESSWOMAN 
LYNN C. WOOLSEY, SUBCOMMITTEE ON WORKFORCE PROTECTIONS, 
COMMITTEE ON EDUCATION AND THE WORKFORCE	69

APPENDIX H - SUBMITTED FOR THE RECORD, "LABOR DEPARTMENT 
ENFORCEMENT REACHES 10-YEAR HIGH," ESA NEWS RELEASE, U.S. 
DEPARTMENT OF LABOR, 12/18/02	77

APPENDIX I - SUBMITTED FOR THE RECORD, "SUITS SAY WAL-MART FORCES 
WORKERS TO TOIL OFF THE CLOCK," GREENHOUSE, STEVEN, THE NEW YORK 
TIMES, 6/25/02	81

APPENDIX J - SUBMITTED FOR THE RECORD, "MANY LAID-OFF SILICON VALLEY 
TECHIES WORK FOR FREE TO BRUSH UP ON SKILLS," SWARTZ, JON, USA TODAY
	91

APPENDIX K -SUBMITTED FOR THE RECORD, "ALL IN A DAY'S WORK," VALENTI, 
CATHERINE, ABC NEWS.COM	95

APPENDIX L - SUBMITTED FOR THE RECORD, LETTER TO CHAIRMAN NORWOOD, 
FROM R. BRUCE JOSTEN, U.S. CHAMBER OF COMMERCE, MARCH 31, 2003	101

APPENDIX M - SUBMITTED FOR THE RECORD, LETTER TO CHAIRMAN NORWOOD, 
FROM DAN DANNER, NATIONAL FEDERATION OF INDEPENDENT BUSINESS 
(NFIB), APRIL 1, 2003	105

APPENDIX N - SUBMITTED FOR THE RECORD, LETTER TO CHAIRMAN NORWOOD, 
FROM SUSAN R. MEISINGER, SOCIETY FOR HUMAN RESOURCES MANAGEMENT 
(SHRM), APRIL 3, 2003	109

APPENDIX O - SUBMITTED FOR THE RECORD, LETTER TO CHAIRMAN NORWOOD, 
FROM DANIELLE RINGWOOD, ASSOCIATED BUILDERS AND CONTRACTORS, INC. 
(ABC), March 28, 2003	113

APPENDIX P - SUBMITTED FOR THE RECORD, LETTER TO REPRESENTATIVE, 
FROM LEE CULPEPPER AND ROB GREEN, NATIONAL RESTAURANT ASSOCIATION, 
APRIL 7, 2003	117



APPENDIX Q - SUBMITTED FOR THE RECORD, LETTER TO CHAIRMAN, RANKING 
MEMBER AND MEMBERS OF THE SUBCOMMITTEE ON WORKFORCE 
PROTECTIONS, FROM THE UNION OF ORTHODOX JEWISH CONGREGATIONS OF 
AMERICA, APRIL 2, 2003	121

Table of Indexes	125











HEARING ON H.R. 1119

THE FAMILY TIME FLEXIBILITY ACT
____________________

Wednesday, March 12, 2003


Subcommittee on Workforce Protections

Committee on Education and the Workforce

U.S. House of Representatives

Washington, D.C.







	The Subcommittee met, pursuant to notice, at 2:09 p.m., Hon. Charlie Norwood, Chairman 
of the Subcommittee, presiding.

	Present:  Representatives Norwood, Biggert, Ballenger, Isakson, Kline, Blackburn, Owens, 
Kucinich, Woolsey, Payne, and Bishop.

	Staff present:  Molly McLaughlin Salmi, Deputy Director of Workforce Policy; Jim Paretti, 
Professional Staff Member; Travis McCoy, Legislative Assistant; Paula Nowakowski, Staff 
Director; Ed Gilroy, Director of Workforce Policy; Greg Maurer, Coalitions Director for 
Workforce Policy; Jo-Marie St. Martin, General Counsel; Kevin Smith, Communications Advisor; 
Kevin Frank, Professional Staff Member; Allison Dembeck, Executive Assistant; Linda Stevens, 
Chief Clerk/Assistant to the General Counsel; Deborah L. Samantar, Committee Clerk/Intern 
Coordinator. 

Peter Rutledge, Minority Senior Legislative Associate/ Labor; and, Dan Rawlins, Minority Staff 
Assistant/Labor.

Chairman Norwood. A quorum being present, the Subcommittee on Workforce Protections of the 
Committee on Education and the Workforce will now come to order.

We are meeting today to hear testimony on H.R. 1119, the Family Time Flexibility Act.  
Under Committee rule 12(b), opening statements are limited to the Chairman and the Ranking 
Minority Member of the Subcommittee.  Therefore, if other Members have statements, they may be 
included in the hearing record.  With that, I ask unanimous consent for the hearing record to remain 
open 14 days to allow Members' statements and other extraneous material referenced during the 
hearing to be submitted in the official hearing record.  Without objection, so ordered.

 OPENING STATEMENT OF CHAIRMAN CHARLIE NORWOOD, 
SUBCOMMITTEE ON WORKFORCE PROTECTIONS, COMMITTEE ON 
EDUCATION AND THE WORKFORCE

	I yield myself time for an opening statement.  The focus of today's hearing is H.R. 1119, the 
Family Time Flexibility Act.  I am proud to be an original co-sponsor of H.R. 1119, which, as we 
will hear today, offers to private sector employees a benefit which public sector employees have 
enjoyed for years:  the ability to choose, at their option, whether to take extra paid time off in lieu 
of receiving overtime pay in their paycheck.

	Let me say first that I imagine each employee given this choice might have a different 
answer, or a different approach, based on his or her own situation.  But that is one of the key 
features of this legislation, that it gives each employee the ability to make this choice for him or 
herself, based on his or her personal priorities, not those of the federal government or a 1938
wage-and-hour law.

	In the last Congress, this Subcommittee heard testimony about flexibility in the workplace, 
and specifically, on the ability of employers to accommodate the needs of their employees under 
the Fair Labor Standards Act of 1938. 

We heard about demographic changes in the workforce, the dramatic changes in the 
workplace as we have moved away from a manufacturing-based economy to a professional and 
service-based economy, and the changes we have seen as women have grown to comprise almost 
half of our workforce.

	We heard about the issues that matter most to today's workers:  chief among them, the 
ability to balance work and family.

	We heard about the failings of outdated provisions in the law, such as that part of the Fair 
Labor Standards Act that generally prohibits a private sector employer from offering paid time off 
to employees in lieu of overtime.

	These hearings made one thing very clear: family-friendly legislation such as H.R. 1119, 
which provides greater options to working men and women in balancing the demands of work and 
family, is an idea whose time has come.

	The Family Time Flexibility Act would, for the first time, give private-sector employers the 
option of offering employees the choice of paid time off in lieu of cash wages for overtime hours at 
the employee's option.

	The bill guarantees that the choice is in the hands of the employee, whether to take 
something extra home in the paycheck, or whether to bank paid time off for a longer vacation, a 
family holiday, or any other reason that they may choose.

	In light of some of the misconceptions surrounding this bill, I think it is also important to 
state for the record what the bill does not do.  The bill does not affect the 40-hour workweek, nor 
does it change the way by which overtime pay is calculated.

	Perhaps most important, nothing in the legislation requires an employee to opt for paid time 
off if he or she would prefer time-and-a-half overtime pay.  Indeed, we have included numerous 
safeguards to ensure that the choice to opt for time off or extra cash is that of the employee, and not 
subject to coercion or undue influence by the employer.

	We will hear from several witnesses today, both as to the practical and the legal aspects of 
expanding workplace flexibility for working men and women.  I look forward to today's testimony.  
I invite my colleagues on both sides of the aisle to support this important families-first piece of 
legislation.

	
WRITTEN OPENING STATEMENT OF CHAIRMAN CHARLIE NORWOOD, 
SUBCOMMITTEE ON WORKFORCE PROTECTIONS, COMMITTEE ON 
EDUCATION AND THE WORKFORCE - SEE APPENDIX A


Chairman Norwood.  I now would like to yield the remainder of my time to my colleague and 
Vice-Chair of the Subcommittee, Representative Judy Biggert, the sponsor of the Family Time 
Flexibility Act.

STATEMENT OF VICE-CHAIR JUDY BIGGERT, SUBCOMMITTEE ON 
WORKFORCE PROTECTIONS, COMMITTEE ON EDUCATION AND THE 
WORKFORCE

Thank you very much for yielding time to me, Mr. Chairman.  I commend you for holding 
this hearing, and I appreciate your support of the Family Time Flexibility Act.  I would also like to 
thank our witnesses for coming today.

	We all know that workers today face a difficult dilemma:  how to balance the demands of a 
job with the needs of their families.  We also know that this challenge has become even more 
difficult as more and more American families rely on two incomes to survive.

	This conflict may weigh most heavily on women, but all workers, regardless of gender, 
experience conflict between work and family, watching their children's soccer game, or going 
through the stack of papers on their desk.

	The Family Time Flexibility Act will help to ease these pressures.  The concept behind this 
bill is simple: if workers have to work overtime, they should be allowed to choose how they want 
to be compensated - with more money or more paid time off.  For some, time is more valuable than 
money.  Most workers just want the freedom to make that choice for themselves. 

That is what this bill does; it gives them choice and flexibility.

	What this bill does not do is to require employees to take compensatory time, or require 
employers to offer it.  But where both parties can agree, an employee could begin banking his or 
her overtime hours to be used at a later time as paid compensatory time off.  In fact, this bill 
contains numerous safeguards to protect the employee, and to ensure that the choice and selection 
of compensatory time is truly voluntary on the part of the employee.

	So, again, thank you, Mr. Chairman.  I look forward to working with you to pass this bill 
and provide workers with flexibility and important protections in a manner that will not overburden 
employers or jeopardize their willingness to make compensatory time available as an option.


WRITTEN STATEMENT OF VICE-CHAIR JUDY BIGGERT, SUBCOMMITTEE 
ON WORKFORCE PROTECTIONS, COMMITTEE ON EDUCATION AND THE 
WORKFORCE - SEE APPENDIX B 


Chairman Norwood. Thank you very much, Mrs. Biggert.  

I yield to the distinguished Ranking Minority Member from New York, Mr. Owens, for 
whatever opening statement he wishes to make.


OPENING STATEMENT OF RANKING MEMBER MAJOR OWENS, 
SUBCOMMITTEE ON WORKFORCE PROTECTIONS, COMMITTEE ON 
EDUCATION AND THE WORKFORCE

Thank you, Mr. Chairman.  I want to welcome this afternoon's witnesses, especially Ms. 
Bravo, and thank you for taking time from your schedules to be with us.

	We are here today to consider H.R. 1119, the so-called Family Time Flexibility Act.  This 
legislation, except for its title, is identical to the comp time legislation introduced by our colleague, 
Mrs. Biggert, in the last Congress, and essentially the same as H.R. 2391, which was considered 
and ultimately rejected in the 104th Congress, and H.R. 1, which was considered but failed in the 
105th Congress.

	The proponents of the legislation contend the bill enhances flexibility for working families.  
In fact, this legislation undermines the 40-hour week and it harms working families.  Indeed, the 
most obvious and direct result of this legislation is to effectively result in workers providing 
inadequately secured no-interest loans to their employers.

	Notwithstanding the rhetoric of the bill's proponents, no worker has a right to paid time off 
under H.R. 1119.  H.R. 1119 does not provide an employee a right to ask for compensatory time 
off, unless the employer first agrees to offer the time off.

	Where an employer offers comp time, the employer may arbitrarily decide to only offer 
comp time to some employees while denying it to others.  Or an employer can arbitrarily deny 
compensatory time to a worker on some occasions, while offering it to him on others.  Rather than 
increasing the worker's control over his or her own life, H.R. 1119 increases the employer's control 
over the worker's life.  H.R. 1119 undermines existing pay leave policies.  Under H.R. 1119, a 
worker may be able to earn the equivalent of a month's paid leave, 160 hours of comp time.  Why 
should an employer give away paid leave when the employer can effectively require an employee 
to earn it through comp time?

	Even when an employee earns comp time, H.R. 1119 does not provide a right for the 
employee to be able to use it.  For example, assume a worker wants to use three days of accrued 
comp time to care for his wife, who is undergoing life-threatening surgery.  Regardless of how 
much notice the employee provides of the intent to take leave, and notwithstanding the fact that the 
employee may have a statutory right to take that leave under the Family and Medical Leave Act, 
the employer may still deny the employee the right to use the comp time the employee has earned.

	The single significant change that H.R. 1119 makes to the overtime law is to permit an 
employer to defer paying anything, potentially for up to a year and a month, for overtime work.  In 
effect, employees are being asked to provide a poorly secured no-interest loan to their employer.

	In industries characterized by thinly capitalized businesses, including the construction 
industry, the garment industry, and many seasonal industries, the promise of comp time is likely to 
be illusory.  A random check of 69 garment contractors in Southern California in 1994 found that 
73 percent maintained improper payroll records, without which fair administration of comp time 
would be impossible; 68 percent were not paying overtime in accordance with current law; and 51 
percent were not even paying minimum wage.

	Allowing such employers to offer comp time will greatly increase the complexity of 
enforcing the law by making it more difficult to determine whether an overtime violation has 
occurred.  It would greatly increase the number of violations that occur as employers seek to keep 
pace with competitors and the temptation to defer payment for overtime work grows.  Finally, it 
will inevitably result in more workers receiving no compensation at all for their overtime work.

	The concern about potential abuse of comp time cannot be overemphasized.  The overtime 
law is among the most commonly violated laws in the country.  At the appropriate point, I will 
submit three different recent news reports concerning overtime violations.  One concerns 
unemployed workers in Silicon Valley, working for free in order to brush up their skills.  Another 
concerns a suit alleging that a major employer, Wal-Mart, regularly required workers to work off 
the clock.

	The third report, from yesterday's ABC News web page, quotes an employment lawyer as 
saying that the current employment environment is the worst he has seen in 23 years of practicing 
law, and that among the biggest problems he sees are companies misclassifying employees in order 
to deny them overtime pay.

	There are things that this Committee can do that would help working families.  We can 
expand the coverage of the Family Medical Leave Act, to ensure that more workers have a right to 
leave in the event of a family or medical emergency.  We can provide workers with the right to 
refuse excessive overtime, rather than being required to work excessive unsafe hours.  Workers can 
ensure they will have the time they need to care for their families.

	And finally, we can increase the minimum wage.  The minimum wage has not been 
increased since 1997.  In five-and-a-half years, inflation has wiped out the value of the last 
increase, and the real value of the minimum wage is approaching its lowest levels in more than 
three decades.

	Unlike the comp time legislation, expanding family leave, providing the right to refuse 
excessive overtime, or increasing the minimum wage are policies that would definitely help 
working families.

	Again, I welcome today's witnesses.  I yield back the balance of my time.

Chairman Norwood. Thank you very much, Mr. Owens.  And I am, as you are, eager to hear from 
our witnesses.  So I would like to start by introducing our witnesses to the Subcommittee.

	First, we have Mr. Houston Williams, who is the founder, Chairman, and CEO of PNS Inc., 
San Jose, CA.  He will be testifying today on behalf of the U.S. Chamber of Commerce.

	Next, we have Ms. Teri Martell, who is an electrician and instrumentation mechanic at 
Eastman Kodak Company in Rochester, NY, where she has been employed for 21 years.

	Our third witness is Ms. Ellen Bravo, who is the National Director of 9 to 5, National 
Association of Working Women, Milwaukee, WI.  Welcome.

	And finally, we have Mr. John Dantico, who is Principal of Compensation/HR Consulting 
for the HR Group, Northbrook, IL.  He is testifying on behalf of the Society for Human Resource 
Management (SHRM).  Welcome, all.

	Before the witnesses begin their testimony, I want to take a minute to remind our Members 
that we will be asking questions after the entire panel has testified.  In addition, Committee rule (2) 
imposes a five-minute limit on all questions.

	And with that, Mr. Williams, if you would begin, please, sir.

STATEMENT OF HOUSTON L. WILLIAMS, CHAIRMAN AND CEO, PNS 
INC., SAN JOSE, CA, TESTIFYING ON BEHALF OF THE U.S. CHAMBER 
OF COMMERCE 

Good afternoon, and thank you all very much for allowing me to testify before you today.  I 
commend you for your efforts to find ways to improve workplace flexibility, and for holding a 
hearing on this very important issue.

	My name is Houston Williams, and I am founder, Chairman, and CEO of PNS Inc.  PNS is 
a California-based corporation involved in providing telecommunications services and products to 
the telecommunication service providers and the end users of that service, to include warehouse 
and distribution, network and system engineering, installation, light manufacturing.

	Approximately 80 percent of my workers are hourly workers subject to the overtime 
provision of the Fair Labor Standards Act.  These employees work primarily in clerical positions 
and as technicians in various blue-collar positions in our warehouses, such as assemblers, drivers, 
rackers, jobbers, and stockers.

	I am here to speak to you today on behalf of the U.S. Chamber.  I joined the Chamber board 
of directors in June 2002, and also served as a member of its council on small business.  The 
Chamber is the world's largest business federation, representing an underlying membership of more 
than three million businesses and organizations of every size and in every industry sector and 
region of the country. Ninety-six percent of the Chamber members are small businesses owners 
with fewer than one hundred employees.

	I am pleased to support H.R. 1119, the Family Time Flexibility Act, and to relate how this 
bill would help my company and my employees.  H.R. 1119 would modernize the application of 
the Fair Labor Standards Act to the private sector by permitting employers to offer their employees 
a voluntary choice of taking overtime in cash payments, as they do today, or in the form of paid 
time off from work.

	Just as with overtime payments, paid time off would accrue at a rate of one-and-a-half hours 
for each hour of overtime worked.  Family time arrangements permit employees to build up a bank 
of time that they can use to take paid time off from work when they need it, provided the time off 
does not unduly disrupt the employer's business.

	Family time, sometimes referred to as compensatory time, is a simple common-sense 
solution to provide additional flexibility to help employees balance work and time for family or 
other personal needs.

	I would think that everyone on this Subcommittee would agree that the workforce has 
changed significantly since passage of the Fair Labor Standards Act 65 years ago.  When the Fair 
Labor Standards Act was enacted, the workforce consisted mostly of men.  It was not typical for 
households with young children to have both parents work outside of the home.

	But today, a greater percentage of employees who work overtime are women.  There are 
more dual-wage earner couples in the workforce, and there are more single mothers in the 
workforce.  These demographic changes in the workforce are a major reason why today, many 
more employees view time off as valuable, and in some cases, more valuable than cash payment for 
overtime.

	Some opponents of family time legislation argue that more mandated family leave programs 
are the way to balance work and family commitments.  But new one-size-fits-all mandates are not 
the solution we need.  Instead of stifling creative scheduling arrangements, we should be finding 
ways to encourage innovative employer-employee partnerships by giving employees and 
employers more options so that, together, they can find solutions to balance the needs of employees 
with the demands of the workplace.

	Providing more options for the employees will help them find time for any number of 
personal commitments, including spending time with family or friends, volunteering with a non-
profit organizational charity, visiting the doctor or dentist, or participating in the local community 
group, church, or religious organizations.

	The concept of giving employees a choice to select paid time off in lieu of cash wages is 
nothing new.  In fact, it has been an option widely available to government employees for close to 
20 years, where I understand it has worked well.  The time has come to give the men and women in 
the private sector the opportunity to choose for themselves whether to receive extra compensation 
or paid time off for working overtime.

	Let me take a moment to describe my company and how enactment of this legislation 
would help me to provide more options for my employees.  PNS has roughly 125 employees, down 
from 375 employees in mid-year 2000.  Roughly 90 percent of our employee body has young 
families or they are of childbearing age.

	PNS is a generous firm, providing full medical benefits, including family coverage, for 
which we do not require any employee co-payment.  We also offer a 401(k) plan, five personal paid 
days off, and two weeks of paid vacation.  These benefits apply equally to all employees, 
regardless of rank.

	For some of my employees, additional paid time off is more valuable than additional 
money.  More time to spend with their families, more time to do errands, and indeed, more time to 
enjoy the material things they have purchased with their wage.

	Even though we offer good benefits, employees sometimes need additional time off to 
accommodate family or personal needs.  To illustrate how enactment of this bill would help my 
employees, let me provide another example.	 On any given day, two or four children accompany 
their parents to work at our corporate headquarters.  This could be for a number of reasons, such as 
child day care.  Often times, those parents would prefer to stay home and work, and care for their 
children at home.  But nevertheless, we allow them to bring their children to work, whereas if they 
had additional time, they would spend that time at home.

	While I work hard to accommodate all the situations like this in our organization, i.e. 
allowing our employees to bring children to work if necessary, passage of this bill will allow me to 
offer these parents a better option:  an opportunity to accumulate a bank of paid time off that could 
be used for unexpected emergencies like these.

	Some may argue that employers support this legislation as a way to exploit their workforce.  
Nothing could be further from the truth.  Employers are genuinely interested, in my humble 
opinion, in providing employees with flexibility to meet family and personal commitments.  And 
this legislation would give me, as an employer, an additional tool to help me meet the needs of my 
employees.


WRITTEN STATEMENT OF HOUSTON L. WILLIAMS, CHAIRMAN AND 
CEO, PNS INC., SAN JOSE, CA, TESTIFYING ON BEHALF OF THE U.S. 
CHAMBER OF COMMERCE - SEE APPENDIX C

	
Chairman Norwood. Thank you very much, Mr. Williams.  We appreciate your testimony.

Mr. Williams. Thank you.

Chairman Norwood. I failed to mention to you that I am always very hesitant not to let our 
witnesses' testimony go beyond five minutes; you make great efforts to be here.  But do the best 
you can to try to stay within a five-minute time frame, please.

Ms. Martell, you are now recognized.

STATEMENT OF TERI MARTELL, ELECTRICIAN AND 
INSTRUMENTATION MECHANIC, EASTMAN KODAK COMPANY, 
ROCHESTER, NY

	Good afternoon, Mr. Chairman, and Members of the Subcommittee.  My name is Teri 
Martell, and I am extremely honored that I have been given this opportunity to share my views on 
the importance of family time, and the need for Congressional action to allow working people 
flexibility in their jobs.

	I have two full-time jobs.  I am, first and foremost, the wife of Robert Martell, who is self-
employed, the mother of two sons, Donny, age 7, and Eric, age 10, and the owner of two dogs, both 
Labrador Retrievers.  We also own our home, which requires a lot of our time.  This job is 24 hours 
a day, 7 days a week.  It is a responsibility I have chosen, it will never go away.  We are a typical 
American family.

	I am also employed as an electrician and instrumentation mechanic at Eastman Kodak 
Company in Rochester, New York.  I have worked for Kodak for 21 years now, and am the major 
source of income and health care benefits for my family.  My commute to Kodak Park in Rochester 
is 1 hour and 15 minutes away, one way.  Therefore, I spend two-and-a-half hours each day on the 
road.  Flexible work hours are part of my everyday life.  My job at Kodak has allowed me to be 
somewhat flexible with my work hours.  Most often, I work four 10-hour days, Monday through 
Thursday.  The company has been very good to me on my work schedule.

	I am a dedicated and proud employee of the Eastman Kodak Company, and I have the 
reputation of someone who does what it takes to get the job done.  Often this includes working 
overtime during emergencies and scheduled shutdowns on our film manufacturing machines.  
When this happens, I have to make a choice between work and family.  And because I am the 
major source of my family's income, I choose to work even on my regularly scheduled days off. 
Saturdays and Sundays are the days when my children are off from school, and Saturdays and 
Sundays are typically family-time days for most American families, like ours. 

Also, my children get many more days off than I do, such as Columbus Day, Veterans Day, 
Martin Luther King Day, teacher conferences, and in up-state New York, snow days.  On these 
days we send them to a babysitter or my husband stays home.  And because he is self-employed, he 
does not earn money when he has to stay home.  It would be a great help to have a bank of hours to 
use for these situations.

	Another example of needing flexibility with overtime pay and how it is paid is when the 
children are sick.  I remember a time when my son Eric was born, I used up 11 of my 20 vacation 
days that year to stay home with him and take him to the doctor, just in that one year.  Being a first-
time mom, and needing to nurture him while he was sick was very important to me and to him, and 
as a working mother, it is very stressful to be at work when your children are in someone else's 
care.  In 1993, if I had been allowed to save up some of those overtime hours, I could have used 
that during those emergencies.  Just like Kodak needs me during machine breakdowns, my family 
needs me too, during health care breakdowns.

	I have heard from coworkers who feel very strongly about the need for more flexible 
schedules, the kind that comp time would allow.  These are employees who are caregivers for their 
aging parents.  One colleague, in particular, told me of her need to balance work and family.  For 
her, comp time would mean allowing more flexibility and spending more time with her ill parent. 
The ability to save overtime as comp time, and use it in times of crises when needed, and to help 
you cope with day-to-day challenges.  Also, someone who has used up annual vacation hours may 
have a need for extra time later in the year.  Banking comp time could offer options instead of 
requiring employees to choose between working and taking time off without pay to address family 
needs.

	Today, in my private sector job, I am not given the choice of paid time off instead of paid 
overtime compensation. The compensation I receive now is only of monetary value.  Money is very 
important; it is the reason I work.  But money does not solve all of my children's needs.  If I were 
given the choice to take paid overtime, I could do so for my family when I want, and at the time I 
need to take it.  Then I might be able to make up some of those lost family-time days or care for my 
sick child or parent.  The decision to permit comp time instead of overtime pay should be left to my 
employer and me to decide, not the Federal Government.

	Over the last century, the make-up of our workforce has changed dramatically.  We are a 
blend of men and women, we are from different cultures, and have different spiritual beliefs.  
Because we are a diverse workforce, we all have different needs, which therefore make flexible 
work hours a must.  The more we as caregivers, employer, and employees work together, the 
stronger our families, our corporations, and our nation will be.

	In closing, I support the Family Time Flexibility Act.  We need to give American families 
and the corporations they work for more flexibility in their work schedules, and how they are paid.  
This can only benefit our country and keep the family structure strong and cohesive.  Thank you for 
inviting me to give my testimony today.


WRITTEN STATEMENT OF TERI MARTELL, ELECTRICIAN AND 
INSTRUMENTATION MECHANIC, EASTMAN KODAK COMPANY, 
ROCHESTER, NY - SEE APPENDIX D


Chairman Norwood. Thank you, Ms. Martell.

	Ms. Bravo, you are recognized.

STATEMENT OF ELLEN BRAVO, DIRECTOR, 9 TO 5, NATIONAL 
ASSOCIATION OF WORKING WOMEN, MILWAUKEE, WI

Thank you so much.  It is a pleasure to be here.  I am Ellen Bravo, the Director of 9 to 5, 
National Association of Working Women.  We are a national grass-roots organization that 
strengthens women's ability to win economic justice.  We have been around for 30 years.  Most of 
our members are low-wage workers, non-management workers. We also hear from thousands of 
people every year on a toll-free hot line.  Our members and these callers are desperate for more 
time with their families and more control over their schedules.

	I am here to testify against H.R. 1119, because it will provide neither of these.

	More than 50 years ago, workers, after a lot of struggle, won a family time flexibility act; 
it's called the Fair Labor Standards Act.  In response to people having to work inordinate hours, it 
set a limit, that said we would define the workweek as 40 hours, and there will be a price to pay, 
employers, if you make people work beyond that.  That was meant to discourage excessive hours.  
It was meant to be a disincentive.

	I want to talk about four situations, and see how this bill would apply.  Number one is 
involuntary overtime.  I will tell you about nurses' aides in central city Milwaukee. They have to go 
in a van to the nursing home because it is way far away, and there are no jobs where they live. 
Sometimes the nursing home says to them, "We are short-staffed.  We need you to stay."  They 
say, "We cannot, child care, blah, blah."  The nursing home says, "Well, guess what?  The van is 
not coming back for you until the end of that second shift." It's a childcare nightmare.

	This bill not only would not help that situation, it will give an incentive to employers to do 
that more often, to require people to stay overtime if, in fact, the employer has the choice of not 
paying for it.

	Secondly, there are people who choose to work overtime because they need the money.  
Denise has a 9-year-old and a 12-year-old.  Those kids stay alone when she works extra hours.  She 
hates it.  But she has no choice because she makes so little money, she cannot pay her bills without 
it.  She is afraid if this bill passes, when she chooses the overtime pay instead of comp time, the 
foreman simply will not choose her to get the overtime hours.

	Now, you can tell her that she has that choice.  In fact, in most cases, non-union, hourly 
workers never negotiate anything with their employers.  I love to hear about situations where they 
do.  But for many workers, it is not a reality.  And if you tell her that she can take her employer to 
court if he treats her unfairly, she will laugh.

	You heard the stories about the overtime violations right now.  Workers do not have the 
money to get lawyers and the time to wait two years to recoup losses.

	The third situation is workers who already have comp time.  Lisa is a paralegal in L.A.  
Every day it seems the lawyers say, "Oh, we need you to stay another hour, we need you to do 
this."  She banks all this comp time, and every time she wants to use it because she needs to take 
care of her family, they say, "Sorry, too busy, cannot do it now."

	Come November, when her kids are in school and no one else is off, they say, "Oh, things 
are a little slower. Take your time," when she doesn't want it.  And there are no guarantees or 
protections in H.R. 1119 that if a company goes bankrupt, the worker will be able to recover the 
comp time owed them.

	The fourth situation exists right now.  It is allowable flexibility.  So, for example, a worker 
who works overtime when they want to, can save enough money so if they need to take some 
unpaid time, they can afford to do it.  It works the same way.  Nothing prevents employers from 
doing that right now.

	Nothing prevents an employer from saying,  "Oh, your kid has a play tomorrow?  Take an 
extra day; come in early the next day.  It's not a problem within this week."  The problem is some 
employers do this, and they know that it works.  It is a best practice to do it.  It pays.  Only less 
than 3 in 10 workers have access to that kind of flexibility, and they are more likely to be 
professional workers and managers.

	What does that mean in real life?  It means Tiffany, who tries to take her kid to kindergarten 
tests so that he will not have to wait a whole extra year to start kindergarten gets fired for doing it.  
It means Andrea, when the school calls and says, "your kid is being suspended, get over here now," 
and she uses the channels and calls into work, gets a week suspension with no pay.  It means that 
today more then ever, more elementary school kids are going to school sick because there is 
nobody able to stay home with them.

	If you want to give more flexibility and time to families, there are plenty of things that we 
know of that you could do, and we urge you to do them.  Expand the Family Leave Act so it covers 
more workers, so that they can use a few days a year for a routine school or medical appointment.  
Work for ways that the states can set up wage replacement funds so that people can afford to take 
that time.  Put limits on mandatory overtime.  Help set a floor for a minimum number of paid sick 
days, so people do not have to use their vacation when their kids are sick.  Adjust the minimum 
wage.  I do not say raise it, adjust it so it gets back the value that it has lost, and index it to 
inflation.  And create fair pay measures so that women do not have to work extra hours because 
they make so little money.

	This is the trick of this law.  The choice for employees, which in itself is dubious, only goes 
into play when something that they have not chosen happens.  Namely, that they are forced to work 
overtime, forced to be away from their families.  That is why this bill gives neither time nor 
flexibility.  Thank you so much.


WRITTEN STATEMENT OF ELLEN BRAVO, DIRECTOR, 9 TO 5, NATIONAL 
ASSOCIATION OF WORKING WOMEN, MILWAUKEE, WI-SEE APPENDIX E

	
Chairman Norwood. Thank you very much.

Mr. Dantico, you are recognized now.

STATEMENT OF JOHN A. DANTICO, PRINCIPAL OF 
COMPENSATION/HR CONSULTING, HR GROUP, NORTHBROOK, IL, 
TESTIFYING ON BEHALF OF THE SOCIETY FOR HUMAN RESOURCE 
MANAGEMENT (SHRM)

Thank you, Chairman Norwood, and Members of the Subcommittee.  Good afternoon.  My 
name is John Dantico.  I am a Principal of Compensation/HR Consulting, currently with the HR 
Group, in Northbrook, Illinois.  I appear today on behalf of SHRM, the Society for Human 
Resource Management.

	I have a rather long and extensive consulting history, working with both private and public 
sector organizations.  In general, I have worked with a broad range of clients, and I focus on things 
like base salary, productivity, sales incentives, executive compensation, organization structure, 
policy development, and long-term compensation planning issues. Along the way of course, I have 
conducted many, many employee interviews and/or interviews with employees, supervisors, and 
managers.

	This hearing is a major step toward creating flexibility where today it is absent, yet where it 
is needed the most, in the workplace for the working families of this nation. The Subcommittee 
Members can create workplace flexibility by supporting H.R. 1119.  It answers the plea of working 
families who continue the struggle to achieve balance, and who are continually forced to make 
difficult choices between the needs of family, and the requirements of an increasingly 
uncompromising work schedule, as we just now heard from Ms. Martell.

	H.R. 1119 allows private sector employees to voluntarily offer their non-exempt employees 
the choice to receive compensatory time off, which is accrued at time-and-one-half the regular rate 
of pay, for each hour of employment worked in excess of 40 hours.  It is a voluntary program.  It 
does not federally mandate that employers adopt comp-time programs.  H.R. 1119 clearly stipulates 
that if a non-exempt employee elects to receive compensatory time off in lieu of overtime 
compensation, he or she is entitled to accrue the comp time, or paid time off, at the rate at which 
the employee would accrue overtime:  one-and-one-half times the regular rate of pay.  There is 
absolutely no change to the fundamental requirement under FLSA.

	It is unfortunate that private sector employees do not share the same benefit that their public 
sector counterparts have enjoyed since 1985, and perhaps even prior to that.  The double standard 
between the public and private sector workforce simply should not continue.

	An employer's comp time program must be offered in accordance with the provisions of the 
collective bargaining agreement.  Should there not be one, an individual agreement can also be 
made.

	Electronic mail, or an employer's payroll system, would allow an employee to select their 
preference of comp time or overtime, by using an automatic check-off feature within for example, 
an automated software program.

	The plan would operate over a 12-month period, and the employer and the employee define 
the period as either a calendar year, a fiscal year, or some other consecutive 12-month period to 
begin as soon as the employee becomes eligible, which is, essentially, after the employee has 
worked at least 1,000 hours continuously with that particular employer.

	There are cash-out provisions, and these allow some staggered comp-time programs, which, 
in turn, allow employers to better manage payouts of the unused comp time.  For example, if an 
employer has 200 non-exempt employees hired at different times, and all have elected to accrue 
comp time, and the employer has designated the official start date of all comp time programs to be 
the completion of the requisite hours of service, let us say 1,000 hours, the cash-out of the unused 
comp time is naturally staggered, and would occur at different points throughout the year.

	The employer is also prohibited from making a comp time program a condition of 
employment.  Non-exempt employees would not be subject to termination should they choose to 
decline an offer of comp time.  Again, there are no mandates here.

	Newly hired employees would be advised of the comp time option and the eligibility 
requirements.  This could be by notice, or by bulletin board, and probably would involve meetings 
with supervisors and managers if there were current employees and/or new employees.

	Under H.R. 1119, no more than 160 hours of comp time during a 12-month period are 
allowed.  The employer is required to cash out any unused comp time 31 days after the end of a 12-
month period.  Requiring the cash-out 31 days after also protects employers from incurring 
insurmountable long-term economic liability.

	The provision provides an additional protection for employees, to ensure that they are 
compensated in overtime cash wages or paid time off.  Any unused comp time is cashed out at the 
highest regular rate.  H.R. 1119 applies the same provision to termination, voluntary or involuntary.

	There is also a provision that the employer can pay for hours banked in excess of 80.  The 
employees can make requests.  My experience is when employees have an option; they have the 
opportunity and capacity to make decisions that, in fact, are best for them at that particular time.

	To wrap up, consistency among the various laws that apply to the workplace is absolutely 
essential.  H.R. 1119 creates consistency with the regulations governing public sector employees' 
use of comp time.  And as to the argument about insufficient remedies, that is rather nonsensical.  
There are plenty of provisions in FLSA right now, and this does not destroy any of those in one 
way or another.

	Thank you very much for listening.  SHRM appreciates this Subcommittee's efforts on 
behalf of working families.  I will be pleased to answer any questions, and thank you, once again.


WRITTEN STATEMENT OF JOHN A. DANTICO, PRINCIPAL OF 
COMPENSATION/HR CONSULTING, HR GROUP, NORTHBROOK, IL, 
TESTIFYING ON BEHALF OF THE SOCIETY FOR HUMAN RESOURCE 
MANAGEMENT (SHRM) - SEE APPENDIX F

	
Chairman Norwood. Thank you, Mr. Dantico, and I apologize for mispronouncing your name.

	I just want to remind the Subcommittee I am going to limit myself to five minutes for 
questions, as the rules call for, and ask all of you to do the same if possible.

	Thanks to all four of you for your testimony.  In your own way, all four of you have 
convinced me even more that this is the correct thing to do for the working families of this country.  
It's as if all of you had been talking to our staffs that enjoy compensatory time and love it, and 
would not have it any other way.  And I am certain they must have helped convince all four of you 
that this is the right thing to do.

Ms. Martell, let me first say that we are especially glad to have you here today.  And you 
are to be commended for the job you are doing balancing all of your different responsibilities, from 
being a breadwinner, to a wife, to a mother, and indeed even a Lab owner.  I know you are busy.

	You spoke very eloquently about being a mother, and keeping the family strong and 
cohesive.  And I do not think there is any Member of this Subcommittee who would not totally 
agree 100 percent with that.

	My question to you is fairly simple.  Why would you choose paid time off under the Family 
Time bill, instead of just simply more money in your pocket?

Ms. Martell. Well, because money does not make up some of that lost time with my children.  
Love and the quality time spent with my children are more important than money.

	Say I have to work Saturday and Sunday this week and I did not see them all weekend, and 
here comes Veterans Day, which I normally have to work.  And if I have that choice to stay home 
with them that day and try to make up some of that lost time, I would do so.  Right now, to do that, 
I have to use my vacation.

Chairman Norwood. So you understand that in this bill, under your present circumstances, that 
would be your choice.

Ms. Martell. Absolutely.

Chairman Norwood. You could work overtime, but you could choose to take Veterans Day, or 
whatever time you liked.

	Now, you understand in this bill that if, God forbid, something should happen in your 
family, and your entrepreneurial husband no longer had a job, you could continue to work for 
Kodak, and you could continue to work overtime.  But at that point it would be your choice, 
perhaps, to take the money, rather than the time off.

Ms. Martell. Yes.  You know, your needs and your wants change with time, depending on your 
circumstances.  Over the last 60 years the workforce has changed.  There are more women in the 
workforce, and people like me, that have to balance family and work. I choose to sometimes have 
that quality time with my children.  Money does not always do it.

Chairman Norwood. Sometimes it is odd about legal language.  My understanding of this bill is 
that clearly you get the choice.  And I would not be willing to support it if that were not the case.  
But you get to make the determination, as my staff does, based on the needs of your family.

Mr. Williams, in your testimony, you spoke at some length about the benefits that you 
currently offer to your employees:  fully paid health care, vacation and personal days off, a 401(k) 
plan.  As an employer do you think being able to offer paid time off, such as the bill before us 
offers, would be perceived as a benefit by your employees?  Would your employees or potential 
employees value it?

Mr. Williams.   Mr. Chairman, I think they would absolutely see that as a benefit.  Today, we do 
not have that flexibility to allow them to bank time.  And often times, our employees will use all of 
their vacation during the summer, and paid personal days off.  And usually at the beginning of the 
school year parents have programs to attend, there are teacher in-service days, and I can go on and 
on and on, that disrupt the babysitting activities for folks, and they need time off.  And often times 
when they do take time off it is without pay.  I would like to see them have the opportunity to bank 
that time and prepare for that eventuality, just as we do in our medical plan.

Chairman Norwood.  I see the caution light is on. And in the spirit of camaraderie, I am going to 
stop now and recognize Mr. Owens for five minutes.

Mr. Owens.  As a courtesy to my colleagues, I want to ask if one of them has to leave early and 
would like to go first in questioning.

	An important question here is do you have choice, as an employee?  Is that a prerogative of 
the employer?  Nowhere in this legislation do we see the right being granted to the employee to 
choose when to take leave.

	Are you aware that comp time does not provide paid leave, Ms. Martell?  You are being 
paid for the overtime you work, and not for the leave.  The only thing H.R. 1119 does is permit 
employers to delay paying you for overtime.  Do you think that helps workers in any way?

Ms. Martell.  If I was going to be delayed in being paid?

Mr. Owens. Yes.

Ms. Martell.  I would be delayed being paid with time off.

Mr. Owens.  You do not get paid in your paycheck for the time off, you do not get the overtime 
pay.

Ms. Martell.  Right.

Mr. Owens.  But later on, if an employer wants to give you time off, they will give you time off 
when they are ready.

Ms. Martell.  When I am ready for it.  

Mr. Owens.  No, when they are ready.  The law does not give you the right to take it when you are 
ready.  That is at the discretion of the employer.

Ms. Martell.  I understand that you would be able to bank up to 160 hours of comp time in a year.

Mr. Owens. You could, but you get it off at the discretion of the employer, you cannot choose.

Ms. Martell. At Kodak I believe I could choose.

Mr. Owens. Well, you would be lucky.  And you can be lucky; you can have a good employer who 
is generous, and so forth.  But right now, the Wage and Hour Act says you have to be paid 
overtime after you work 40 hours.

Ms. Martell. Right, as it stands now.

Mr. Owens. You get the pay, and it comes in your next paycheck.

Ms. Martell. Yes, it does.  Right now, that is absolutely how it happens.  I get paid the next week 
for the overtime I worked last week.

Mr. Owens. But you understand you will not have any law to back you up.

Ms. Martell. Right now?

Mr. Owens. No.  If this provision goes through, H.R. 1119, you will not have any law to back you 
up on your overtime and your choice.  You cannot take it when you are ready.  There is nothing in 
this legislation now that says you can take it when you are ready to take it.

Ms. Martell. I guess I do not fully understand what you are getting at.  The way I understand it, I 
could bank my overtime hours at time-and-a-half.  If it was a Saturday, say, I would get paid time-
and-a-half, and I would take that when I needed it as my own personal day, at my leisure.  It is my 
choice.

Mr. Owens. No, it is not.  The law would not give you that choice.

Ms. Martell. So you are saying my company would say, "Okay, December 24th."

Mr. Owens. It is up to them, not you.  I just want to let you know you do not have a right to take it 
when you want it.

Mr. Williams, how does overtime law stifle creative scheduling?  You know, you made it 
appear that it did.  Beyond delaying when you must pay workers for their overtime, what can you 
do under H.R. 1119 that you cannot do now?  You could do creative scheduling now.  What does 
H.R. 1119, in terms of creative scheduling add?

Mr. Williams. In the State of California, there are limitations on creative scheduling.  Creative 
scheduling to me means for example, my employees can choose to work on a particular project 
four 10-hour days.  And that project happens to be a public project.  I can't work four 10-hour days 
on a public project in the State of California. I just cannot do that.

Mr. Owens. Well, that is California law, this would not override California law and give you the 
right to do anything that California law prohibits you from doing now.  This bill would not help.
It would not override California law.

Mr. Williams. But on other than public projects, I could allow for much more flexible scheduling 
in support of my employees.  They would determine how many hours they want to bank, and when 
they want to use those hours.  

Mr. Owens. You have that power right now.

Mr. Williams. I have that power right now?

Mr. Owens. Yes.

Mr. Williams. But I would like to have a situation, as we try to do in almost every situation with 
our employees; we try and give them as much flexibility in our schedule as possible.

Mr. Owens. Let me just take a minute to go back in history to H.R. 1, which passed the House of 
Representatives but never passed the Senate, and was very similar to this bill, almost identical.

	I contended then that it would hurt a great deal of people who were low wage earners.  
Minimum wage people would be greatly hurt, and wage earners in general, people who are not on a 
salary, at a certain level.  The popularity of comp time is greatest as you go up the ladder, in terms 
of level of wages.

Ms. Bravo, do you know anything about how this would impact on minimum wage 
workers, or people at the lowest end of the wage scale?

Ms. Bravo. People who have the lowest pay also have the lowest amount of power, and therefore 
would be least likely to be able to get comp time when they needed it, to be covered if it were 
denied them, to do anything about a violation.

	A good employer who wants flexibility right now can say, "If you need to take some unpaid 
time, and you have earned enough money from overtime to pay for that, that's fine with me.  I will 
help you schedule it."  A good employer right now can be more generous in how much paid time 
off, or can be generous about flexibility within a week of when you start and end your day, just like 
Teri has four 10-hour days, or letting somebody come in later, leave early, et cetera.  There is no 
limit right now on that kind of flexibility.  Employers have that right.

	This, unfortunately, puts all the power in the hands of the employers.  The employer decides 
whether to force you to work overtime in the first place.  The employer decides whether to offer 
comp time.  The employer decides when you can take it, whether to agree to let you take it when 
you want to, and the employer decides whether to cash it in.

Mr. Owens. Thank you very much.  I am out of time. I just want to note that the person on 
minimum wage working 40 hours a week, provided they work all year long, et cetera, on the job, 
makes less than $12,000 a year.  So many of those people are dependent on overtime pay in cash in 
order to be able to make ends meet for their families.  Thank you.

Mrs. Biggert. [Presiding]  Thank you, Mr. Owens. 

Mr. Dantico, it is my understanding, that under the Family Time Flexibility Act, there are 
new protections added to the law to ensure that the choice and use of compensatory time by the 
employee is truly voluntary, and that employers would be prohibited from requiring employees to 
use accrued compensatory time solely at the convenience of the employer.

	Employees may use accrued compensatory time within a reasonable time after making a 
request, and this is the test, so long as its use would not "unduly disrupt" the operations of the 
business.  Now, that is not even true with vacation.  An employer can turn down vacation, and they 
are not required to meet that standard.  Is that your understanding?  Is there a difference?

Mr. Dantico. Yes, particularly your reference to vacation.  There is no question.  I would agree.

Mrs. Biggert.  Mr. Williams, can you think of a situation where an employee came to you and 
asked for family leave and you said no?

	Mr. Owens brought up the case of someone that had a family member in the hospital, and 
they were going to have to spend three days with them.  Would there be time at which you as an 
employer would refuse that employee that time off?

Mr. Williams. It would be extremely difficult for us to refuse employees time off.  There is one 
situation I can imagine we could find ourselves in where we might refuse an employee.  We have a 
project-oriented environment, and we have a time schedule to work within in terms of what the 
client wants us to get done.  We would still try to do everything we could to allow individuals on 
that task team to take time off if they need it.  But that is about the only situation I can think of 
where I would turn down an opportunity for someone to take comp time off.

Mrs. Biggert.  In any event, the employee would have the right to go to the Department of Labor 
and use any of the means there are to remedy a situation.

Mr. Williams. Absolutely.  Yes, ma'am.

Mrs. Biggert.  Have employees in your company ever said that they had been forced to work 
overtime?

Mr. Williams. I have no documentation or recollection of any of my employees complaining that 
they have been forced to work overtime.

Mrs. Biggert. Okay.  Ms. Martell, have you ever felt that you have been forced to work overtime?

Ms. Martell. Never, never.

Mrs. Biggert. Can you think of any situation where you might ask for time off and it might be 
reasonably refused and you would not be able to take it?

Ms. Martell. I do not think I have ever run into that situation.  I have never been refused vacation 
time; I have never been told I could not take a day off for any reason.

Mrs. Biggert. Okay.  And what would you do if you were?

Ms. Martell. If I was told that I could not take a day off?

Mrs. Biggert. Yes.

Ms. Martell. Well, at Kodak we have our human resource department.  I could go talk to one of the 
HR professionals.  We have a couple of different avenues I could pursue about a refusal of time off.  
We have an ombudsman office for concerns like that, and we also have a council of employees to 
resolve that.

Mrs. Biggert. Thank you.  

Mr. Dantico and Mr. Williams I'll ask you both the same question.

Mr. Dantico, in your testimony, you indicated that where federal employees enjoyed 
flexible schedules by way of comp time, the operation increased productivity and reduced 
absenteeism.  Could you expound on that?

Mr. Dantico. That is my understanding from different articles and people I have talked to in 
different government capacities.  I could not cite an immediate reference right at this point in time.

	I would like to add one thing, though.  The gist of the conversation tends to center on choice 
by the employee.  Granted, there are some "bad apple" employers in this world, but fortunately 
there are very few.  However, there is a situation you run into, particularly when you are a 
consultant.  When you talk to a supervisor who says, "We have been through a heck of a crunch.  
My folks want a little time off; they do not want the cash.  I am handicapped."  So it is not just a 
one-way street.  The employer, in many cases, wants the handcuffs off in order to help the 
employee, perhaps not unlike what we just heard about Kodak.  

Mrs. Biggert. Thank you very much for adding that. In fact, we all talk about "R&R", and 
everybody needs it.

Mr. Williams, could you address that quickly? Would this reduce absenteeism or increase 
productivity, if employees did have the opportunity to take more time off?

Mr. Williams. I feel that it really would.  Based on friends that I have working in the Post Office, 
and other arms of the Federal Government, they swear by it.  They are there every day, and from 
my observations they take great pride in taking their 30 days off, going to Hawaii, and taking their 
family with them.

	So, yes, I would think it would encourage people to come to work, because they know they 
would have that flexibility.

Mrs. Biggert. Thank you.

Mr. Owens. I ask unanimous consent to enter into the record three articles that I referred to in my 
opening statement.

Mrs. Biggert. Without objection, so ordered.

	Mr. Bishop is recognized for five minutes.

Mr. Bishop. Thank you, Madam Chair, and thanks to all of you for coming before us this 
afternoon.

	One of the concerns I have about this piece of legislation is the potential for employers to 
discriminate against their employees with respect to those to whom they will grant overtime and 
those that they will not.

	If a company has 10 employees, and eight of them are willing to work overtime for 
compensatory time, and two of them are not, I think the potential for the eight receiving 
preferential treatment in the awarding of overtime is relatively high.  And because of that potential, 
it seems to suggest that the enforcement mechanisms that would be required to protect workers 
need to be well in place.

	This is a question for either Mr. Dantico or Mr. Williams.  The Labor Department's Wage 
and Hour Division is already under funded.  The budget for next year, fiscal year 2004, has been 
cut by $10 million from the fiscal year 2003 budget, in terms of enforcement. And my question to 
both of you is do you agree that this legislation will require an enhanced level of enforcement, and 
do you believe that the budget that is proposed for fiscal year 2004 is adequate to support that 
enforcement?

Mr. Dantico. Mr. Bishop, I cannot comment on the budget adequacy, but I can tell you that I have 
worked with companies, I am from the Chicago area, and I have suggested that companies call the 
Department Wage and Hour Division.  And in recent years I have been able to get answers, I do not 
know if my clients can, within a day or two.  And that often clears up a problem.

	Now, in terms of actual enforcement, I do not know if there is a need for additional 
enforcement.  You still have to keep records.  That has not changed.  

Mr. Bishop. Would you not agree that the potential for abuse is heightened by this legislation?  
And would you not agree that if that abuse were there, that greater enforcement would need to be in 
place?

Mr. Dantico. I cannot answer.  I really do not know.

Mr. Bishop.  Mr. Williams?

Mr. Williams.  I could not agree to that, Mr. Bishop.  But we have existing guidelines and rules 
under the Fair Labor Standards Act that allow employees to be protected, and I think those 
resources would be available to them under this new legislation, as well.

Mr. Bishop. So you do not believe that there is a temptation here for employers to choose those 
employees who will take compensatory time?

Mr. Williams. No, I do not.

Mr. Bishop. Okay.

Mr. Williams.  In most of our environment, we maintain lists that say, "Here are the people that 
will take the overtime," and we take care of everybody, up and down the list. The higher you get on 
the overtime list, you fall back to the bottom and give everybody else an opportunity to take 
overtime in the event that they want to take it. So, they have option to take it, or they have an 
option to turn it down.  And they are not penalized.

Mr. Bishop. My fear is that not all employers are as enlightened as what you just described.  But I 
applaud you for having that type of approach for your workers.

	I have another question for you, Mr. Williams.  I believe you are here representing the U.S. 
Chamber of Commerce.

Mr. Williams. That is correct.

Mr. Bishop. This piece of legislation has been proposed as something that would help working 
mothers.  I am married to a working mother, who spent the 24 years during which we have had 
children working full-time, and I have two daughters who, someday, will be working mothers.  So I 
am very interested in that.

	One of the concerns that I have is that we are making it more difficult for working mothers.  
The fiscal year 2004 budget cuts money for after-school care by 40 percent. And my question is 
what is the U.S. Chamber of Commerce position on such a draconian cut in such an important 
area?

Mr. Williams. I do not know the up-to-date position on that issue, Mr. Bishop.

Mr. Bishop. Thank you.  I yield back the rest of my time.

Mrs. Biggert. The gentleman yields back.  

The gentleman from Minnesota, Mr. Kline, is recognized for five minutes.

Mr. Kline. Thank you, Madam Chair.  

There has been, at least in my own mind, some confusion over what this time is that you 
buy by working overtime.  And it seems to me, as a sort of simple way of thinking about it, that it 
is like buying vacation time, except that it is super-vacation time or vacation time that your 
employer is, in fact, going to provide.

	So, if you work overtime, Ms. Martell, and you bank these hours, do you think of that as 
vacation time, for example?

Ms. Martell. I would think of it as personal time. I would like to think vacation time is vacation 
time, and my banked comp time is more like personal time.

	In the public sector, some companies and school districts there are personal days.  We do 
not have personal days.  But I would almost look at comp time as being a personal day to take care 
of my household, and a day to take care of my children when they do not have school.

	I know people at work that like to golf, and they would love to have more opportunities to 
golf.  Up in New York, we do not have the longest summers.  And people that like to boat would 
do that then.  I work with a lot of people that would like to bank comp time to use it at their leisure. 
So in my mind I would call it a personal day.

Mr. Kline. Thank you.  I am from Minnesota.  And I know something about restricted golf days.

[Laughter.]

We are still waiting for that first blade of green grass.

Ms. Martell. That is right.

Mr. Kline. I guess my point is that with vacation time, when you want to take that time, it is 
something you discuss with your employer.  Not every employee at Kodak, or anyplace else, can 
take all their time off at once, but you do not have any difficulty working out that time off with 
your employer, is that right?

Ms. Martell. No, not at all.

Mr. Kline. Okay.  Thank you very much.  

Mr. Dantico, a concern has been raised here and in the past about the bill's provision that 
employees may take paid family time off, so long as it does not "unduly disrupt the operations of 
the employer."  You have tremendous credentials and experience.  In your experience, have you 
ever known this to be a significant problem?

Mr. Dantico.  A significant problem, no.  You cannot just do it; you have to run a business.  So 
there are obviously some natural obstacles to decisions of that nature.

	The Department of Labor has regulations on this, and there are court cases on it.  
Essentially, we already have a body of decisions that pretty well govern what that statement means, 
and it is pretty narrowly construed.

Mr. Kline. It is not a disruption in the public sector now, for example?

Mr. Dantico. Well, the public sector has been dealing with it for seven-plus years, and I certainly 
have not heard any outcries.  Their commitment to their customers, us, is certainly no different than 
customers in the private sector, and the obligations thereto.

Mr. Kline. So you would agree then, I assume, based on your testimony and your answers to 
questions here, that this Act would, in fact, give flexibility to employees and employers and it 
would not be disruptive to the employer. Is that right?

Mr. Dantico. Yes.  That would be my statement, and scheduling vacations fits right into that.  To 
me the payout has not changed, you just simply have a choice:  cash or time off.  I do not want to 
make it any more difficult than that.

Mr. Kline. So simply put, in your judgment, this does, in fact, add to flexibility for the employee?

Mr. Dantico. Oh, without question, yes.  My earlier comment about supervisors wanting to be able 
to do something but being handicapped happens all too many times.

Mr. Kline. Thank you.  I yield back.

Mrs. Biggert. The gentlewoman from California, Ms. Woolsey, is recognized for five minutes.

Ms. Woolsey. Thank you, Madam Chairman.  I know about work schedules and overtime from two 
personal perspectives.  First, from my professional experience of 20 years as a human resources 
professional consultant, and a human resources manager, and second, as a working mother.  I 
worked full-time and raised four children.  So I know what this is about.

	And as a human resources professional I would tell my clients that if they would take care 
of their employees so that the employees could take care of their families, then that family would 
work hard for them, would be loyal.  And one way to do that would be to provide real flextime for 
the needs of the employee and the employee's family.

	And I have to tell you that if my colleagues on the other side of the aisle wanted this to be 
possible, they would be more concerned about working families, and would make sure, as the 
majority party, that they make comp time truly voluntary, and not have a flexible schedule.

Ms. Martell, what would happen to your schedule?  I mean, how disruptive would it be if 
one week Kodak said you worked three days and you worked five days the next week, and the next 
week you worked two, and then you worked six, because you would be getting your comp time, it 
would be banked.  What would you do if that happened, because that is possible under this bill?

Ms. Martell. I suppose if I worked for a company like that, I might be looking for another job.

Ms. Woolsey. Well, there you go.

Ms. Martell. But my company does not do that.

Ms. Woolsey. See I am assuming that all of you know good employers or work for good 
employers, or represent good employers.  But you know, there is a reason for the National Labor 
Relations Board, and that is because not all employers are that good.  So we need to protect.  And 
what we are trying to protect against is using employees.  So I guess I should ask some questions, 
shouldn't I?

	Ms. Bravo, have you ever heard of a law that would prevent an employer from giving time 
off?

Ms. Bravo. None.  Zero.  Right now, those supervisors you care about, tell them to call me, I will 
tell them how to do it.  It is really easy.

	The problem is if any of you believe that this flexibility is not an issue, come sit on the 9 to 
5 hot line for one day or one week.  You want to meet someone who was told they could not take 
time off when their loved one was in the hospital?  Come to us.  You want to meet someone who 
was fired while they were in the hospital?  Come to us.

	My husband was a factory worker for 18 years.  Many times he had to work forced 
overtime.  The problem is that people cannot choose when to work overtime, that they are required 
to do it in the first place, and to be away from their families. Then we try to figure out, "Well, what 
will we do to compensate for that?"

	Let us make it so that they do not have to be forced.  That is where they need choice.

Ms. Woolsey.  We know that every business cannot have people saying "willy nilly", "I am going 
to show up this day, I am not tomorrow."  I mean, there has to be some scheduling, and of course, it 
has to be around the business's needs.

	But when you bank comp time, if using that comp time is based on not unduly disrupting 
the business, when does it say that that comp time is available for when an employee really needs 
it?  And why should it be for when it is really needed?  It should be when the employee wants to 
take it.  They have worked for it; it is theirs.  They need to take it when they schedule it.

	And this bill does not make that possible.  It is a step backwards.  I was part of the system 
for 20 years.  I know it absolutely.  And we should not be supporting it until we make it right.  We 
can make it right, so it works for the employee, as well as the employer.  And it will be fair, all the 
way around.  Then it will be more flexible.

	So, Mr. Dantico, why don't you if you can, tell us about creating flexibility for families, 
when, indeed, they can only take it when it is in the best interest of the business?  How does that 
work for the family?

Mr. Dantico. Well, I don't know that I would phrase it quite that way.  The situations I run into are 
where the supervisor is simply handicapped and cannot give the time off.

	There are always scheduling problems, and overtime exists.  It is a characteristic of business 
that things go up and down.  If the employee needs the cash, they can get it through this bill, 
basically get their overtime pay, if they wish.

	In terms of the employee trying to take the time when they need it, if you have a halfway 
decent employer, the employee is going to ask, and most employers are going to allow the 
employee, with a reasonable amount of notice, to take the time off when they need it. 

Ms. Woolsey. But how do you have reasonable notice if your kid breaks his arm, and you have to 
get up and leave?

Mr. Dantico. I would simply call in and say, "I cannot do it," and forego the pay for the day.  That 
is what happens.  There would be no such thing as a bill that can cover all those situations.

Ms. Woolsey. But why are we fiddling around with something that works now?  

Thank you.

Mrs. Biggert. The gentleman from Georgia, Mr. Isakson, is recognized for five minutes.

Mr. Isakson. Thank you, Madam Chair.

I would like to personally acknowledge that I am very proud to have Eastman Kodak in my 
district.  It is a great company, and Ms. Martell, I know you are from New York, but we are 
delighted to have your facility in Atlanta, and appreciate what you do.

	I guess this is a comment that maybe begs a question.  I am a co-sponsor of this bill, so I am 
for it.  Ms. Woolsey does not sound like she is convinced yet.  But I do want to make a statement.  

There are bad people, there are bad employers, there are bad employees, there are criminals, 
there are speeders, and there are all kinds of things in the world.  If we did not allow ourselves to 
do anything for fear that there was a bad person, we would never do anything.  That is my first 
comment.  Second, I thought the Department of Labor and the National Labor Relations Board 
were the people in charge of seeing to it that working lives were not violated in the first place.

	But I do want to tell you all something about running a business.  Overtime is a good thing, 
because it means you have got a lot of business.  It means your customers are either increasing their 
orders, or they are doubling up on an order, or service.  It means you are doing business.  And if 
you are doing business, it means you are employing people.  And if you are employing people, it 
means you are paying them.  And if they have families, it means children are fed, they have 
clothes, and they have an education.

	So, I understand the arguments on the other side, but we just cannot castigate the demand 
for business of a businessman or businesswoman or a corporation that is providing meaningful 
employment to families. Had I not been in business, I could not have sent my kids to college.  I 
could not have enriched their lives.  And I worked a lot of long hours to do that.

	So, business is not a bad thing, overtime is a symptom of a very good thing, and that means 
that you have a lot of business.  But I acknowledge that there are bad actors, and I acknowledge 
that is why we have the National Labor Relations Board, but I just wanted it to be said that all 
businesses are not bad.

	I think most businesses care more about their employees than the owners care about 
themselves, because without their employees, they would not even have a business.  And I know of 
many occasions where corporations and businesses have gone out of their way to accommodate a 
tragedy, whether it is a broken arm in the back yard on the swing set, or whether it is a diagnosis of 
cancer, or whether it is a tragic death.

	So, while we are castigating business in a general broad-brush manner, because somebody 
might not get off because their child broke their arm, which I think would be a very rare occasion, 
let us remember children are being fed, clothed and educated because businesses are providing jobs 
and income and health insurance.  And that is a good thing.

	While overtime is tough if you are working it, the truth of the matter is, if you are doing 
overtime, then you are doing a good job, your business is up, you are going to have more 
employees and more income for those employees and that is not a bad thing.  So, I just felt like the 
other side of the story needed to come out a little bit.  

	Ms. Bravo.

Ms. Bravo.  Thank you.  I just wanted to add I certainly know there are good employers.  I have 
written a book on job-family challenge; I have cited a lot of good employers, Kodak being one of 
them.

	The problem is the good employers do not need a law to be flexible.  They can do it right 
now.  This law will not transform bad employers into good employers.  We need laws that set a 
floor and that protect against abuses, and we need to make sure that we are not cutting the budgets 
of the agencies that enforce the law, which unfortunately, right now, is what is happening.

Chairman Norwood. Would the gentleman yield?

Mr. Isakson. Yes, sir, Mr. Chairman.

Chairman Norwood. I would like to follow up on that just a little bit.  Does everybody agree that 
the employers can do that now?  What I mean by that is if an employee works 44 hours or 48 hours 
in one week, I do not think employers have a choice about what they can do; they have to pay time-
and-a-half.  

Ms. Bravo.  Yes. Oh.

Chairman Norwood. Well, my question is, is that right or wrong?  Are you saying they don't have 
to pay time-and-a-half?

Ms. Bravo.  Yes, they have to pay time-and-a-half.  On the other hand, if the employee says, "Gee, 
next week, I would like to take a day off after working so much," there is nothing to prevent them 
from saying, "Sure, go ahead."  And now that I have banked the extra money, I can afford to take 
the time off, if that is what I choose to do.  And you can work with me to do that.

Chairman Norwood.  But it is also equally important that the employer and the employee can 
agree.  I know the U.S. House of Representatives has been way ahead on this, by the way.  We 
passed it in the 104th and the 105th Congresses.  The happy news is we have a better Senate.  We 
are liable to get this done, and the employer and the employee ought to be able to make this kind of 
decision without any help from us.  

I yield back.

Mr. Isakson. Oh, I think you are doing well, Mr. Chairman.

[Laughter.]

I yield back the balance of my time.

Mrs. Biggert. The gentleman yields back.  

I request that a press release from the U.S. Department of Labor dated December 18, 2002, 
entitled, "Labor Department Enforcement Reaches 10-Year High: Wage and Hour Division 
Recovers $175 Million for Workers" be put in the record. This is about the $175 million in back 
wages collected for 263,593 workers in fiscal year 2002, the largest amount collected by the 
Department in 10 years. 

Without objection, so ordered.
	
The gentleman from New Jersey, Mr. Payne, is recognized for five minutes. 

Mr. Payne. Thank you very much.

Ms. Martell, you are very fortunate.  Kodak is a very reputable company, and I am not 
surprised that things work well there.

	However, I think that laws are not usually made for the good guys; they are usually made 
for people who violate the laws.  And I think we have heard about this rosy picture of employers.  
However, it took a lot of laws to bring bosses into line.  They had women and children who worked 
12 hours a day.  They had doors locked, the great fire in Chicago, where IOGW women were 
burned at the terrible fire.

	So the reason that government is best which governs least is if you had all good guys, if 
everybody was like Kodak, you would not need these laws.  But you should go to some of the side 
streets in my town, or over in New York City.  You do not have the Kodak-type employer.  I am 
glad that everybody on the other side only knows good people.  I know bad people, people that 
abuse people, people that take advantage of people, people who are strong and powerful who take 
advantage of the weak people.

	Now, if I was a boss and I said to four of you, "I want you to take comp time," and three of 
you said, "Okay," and the other one said, "No, I cannot take it," that fourth person would be a guy 
that I put on the list as "non-cooperative," "a problem."  When any kind of advantage or promotion
would come up, I would say that is a less-than-cooperative individual, you know, we asked for 
comp time and they said no.

	I think that also, the whole question of overtime as it relates to comp time is if you have 
people that will take the comp time and not ask for overtime pay, you are going to do away with 
overtime as we know it.  And the time is only going to be given when the corporation feels it can 
afford to give the time.  And I think it was made very clear by Mr. Owens early on that it is less 
flexibility for the worker.  They are telling you when they want you to work overtime, and you 
have a right to do it or not.

	However, you have got to ask when you can take the comp time, and they have the right to 
deny you the comp time.  So it is not more flexibility, it is actually less flexibility for the worker.  
And anyone that tries to paint this as more flexibility because the employer, the boss, does not have 
to give you the time off when you decide you want the time off, whereas you have a right to deny 
overtime, but you do not have a right to get your comp time.  So that is not equal footing.

	And so, I just think that if you had a good employer like Kodak, from what I know about 
Kodak and how you have talked about it, you could do all the things now without this law at 
Kodak.  You shake your head.  They would not give you time off if you needed to take some time 
off?

Ms. Martell. If I wanted comp time, no.

Mr. Payne. Well, what makes you think you are going to get it under this law?

Ms. Martell. Because I am going to have a choice.

Mr. Payne. A choice of what?

Ms. Martell. I am going to have a choice to either get paid that time-and-a-half, or I am going to 
have the choice to take that comp time.

Mr. Payne. Well, that is when you have got it banked.  I am talking about next week, when you 
want the time off.  You cannot take the comp time before you earn it, next week, not now.

	You have a right not to work overtime, and therefore, do not make any additional money, or 
work overtime and do not get paid.  I am talking about next week; you decided to take off to go see 
your daughter in the play at school.

Ms. Martell. See, I believe the company I work for, I could do that.

Mr. Payne. See, that is what I am saying.

Ms. Martell. Should we punish the good companies and the employees that work for those good 
companies?  Or should we be going after the companies that are forcing others to work?

Mr. Payne. Oh, well, like I said initially, the only reason that we put in laws is you would not need 
traffic lights if everybody just stopped and looked around, made sure another car was not coming, 
and then went.

	I mean, all kinds of things are put in because of the one that breaks the law, the one that is 
incorrigible, and it is the same thing with business.  I just contend that there are measures in the 
current system, and I think that it is unnecessary, and I would hope that it is defeated.  I yield back.

Mrs. Biggert. Thank you.  In closing, let me just say that we have worked on this bill for a long 
time, and it has been in several of the Congresses, and we have tried to address the issues from the 
other side of the aisle.

	One of the things is that this has worked in the public sector for over 20 years.  And we 
have heard from the firefighters, we have heard from the FOB, the police union, and they seem to 
like it.  Any time that we ask an employee what they would like, they would like to have the 
flexibility.  And it is voluntary.  If it does not work for an employee, they can cash in and go back 
to the overtime pay.  It is not a rigid situation at all, and the public sector likes it.

	There is also a sunset provision in here for five years.  If it does not work, then we will 
review it then and change it.  But from what we have heard, it is flexible for the company to offer 
it.  There are certain situations where a company will not offer this because they know that in their 
type of business that it is not going to work.  But once they decide to offer comp time, any 
employee has the choice of either taking comp time or time off or overtime pay.

	So, I would think that we would continue this discussion, and I really thank both the 
witnesses and the Members for their valuable time and participation.

Mr. Owens. Madam Chair?

Mrs. Biggert. Yes?

Mr. Owens. Madam Chair, I just wanted to say that when H.R. 1 was offered years ago, I did offer 
an amendment on the floor to take care of the concerns of those people who were making twice 
minimum wage.  It exempted them from this, and allowed people who are professionals, who seem 
to look at it more favorably, to go ahead, and I will be offering an amendment again.

	I hope, in your wisdom and compassion, we can work together on that amendment.

Mrs. Biggert. We will take a look at it.  I have not seen it.  Thank you.

If there is no further business, the Subcommittee stands adjourned.


Whereupon, at 3:35 p.m., the Subcommittee was adjourned.













APPENDIX A - WRITTEN OPENING STATEMENT OF CHAIRMAN 
CHARLIE NORWOOD, SUBCOMMITTEE ON WORKFORCE 
PROTECTIONS, COMMITTEE ON EDUCATION AND THE WORKFORCE 











APPENDIX B - WRITTEN STATEMENT OF VICE-CHAIR JUDY BIGGERT, 
SUBCOMMITTEE ON WORKFORCE PROTECTIONS, COMMITTEE ON 
EDUCATION AND THE WORKFORCE 

















APPENDIX C - WRITTEN STATEMENT OF HOUSTON L. WILLIAMS, 
CHAIRMAN AND CEO, PNS INC., SAN JOSE, CA, TESTIFYING ON 
BEHALF OF THE U.S. CHAMBER OF COMMERCE 











APPENDIX D - WRITTEN STATEMENT OF TERI MARTELL, 
ELECTRICIAN AND INSTRUMENTATION MECHANIC, EASTMAN KODAK 
COMPANY, ROCHESTER, NY 











APPENDIX E - WRITTEN STATEMENT OF ELLEN BRAVO, DIRECTOR, 9 
TO 5, NATIONAL ASSOCIATION OF WORKING WOMEN, MILWAUKEE, 
WI 











APPENDIX F - WRITTEN STATEMENT OF JOHN A. DANTICO, 
PRINCIPAL OF COMPENSATION/HR CONSULTING, HR GROUP, 
NORTHBROOK, IL, TESTIFYING ON BEHALF OF THE SOCIETY FOR 
HUMAN RESOURCE MANAGEMENT (SHRM) 











APPENDIX G - SUBMITTED FOR THE RECORD, STATEMENT OF 
CONGRESSWOMAN LYNN C. WOOLSEY, SUBCOMMITTEE ON 
WORKFORCE PROTECTIONS, COMMITTEE ON EDUCATION AND THE 
WORKFORCE











APPENDIX H - SUBMITTED FOR THE RECORD, "LABOR DEPARTMENT 
ENFORCEMENT REACHES 10-YEAR HIGH," ESA NEWS RELEASE, U.S. 
DEPARTMENT OF LABOR, 12/18/02











APPENDIX I - SUBMITTED FOR THE RECORD, "SUITS SAY WAL-MART 
FORCES WORKERS TO TOIL OFF THE CLOCK," GREENHOUSE, 
STEVEN, THE NEW YORK TIMES, 6/25/02











APPENDIX J - SUBMITTED FOR THE RECORD, "MANY LAID-OFF 
SILICON VALLEY TECHIES WORK FOR FREE TO BRUSH UP ON 
SKILLS," SWARTZ, JON, USA TODAY











APPENDIX K -SUBMITTED FOR THE RECORD, "ALL IN A DAY'S 
WORK," VALENTI, CATHERINE, ABC NEWS.COM











APPENDIX L - SUBMITTED FOR THE RECORD, LETTER TO CHAIRMAN 
NORWOOD, FROM R. BRUCE JOSTEN, U.S. CHAMBER OF 
COMMERCE, MARCH 31, 2003











APPENDIX M - SUBMITTED FOR THE RECORD, LETTER TO 
CHAIRMAN NORWOOD, FROM DAN DANNER, NATIONAL FEDERATION 
OF INDEPENDENT BUSINESS (NFIB), APRIL 1, 2003











APPENDIX N - SUBMITTED FOR THE RECORD, LETTER TO CHAIRMAN 
NORWOOD, FROM SUSAN R. MEISINGER, SOCIETY FOR HUMAN 
RESOURCES MANAGEMENT (SHRM), APRIL 3, 2003











APPENDIX O - SUBMITTED FOR THE RECORD, LETTER TO CHAIRMAN 
NORWOOD, FROM DANIELLE RINGWOOD, ASSOCIATED BUILDERS 
AND CONTRACTORS, INC. (ABC), March 28, 2003











APPENDIX P - SUBMITTED FOR THE RECORD, LETTER TO 
REPRESENTATIVE, FROM LEE CULPEPPER AND ROB GREEN, 
NATIONAL RESTAURANT ASSOCIATION, APRIL 7, 2003











APPENDIX Q - SUBMITTED FOR THE RECORD, LETTER TO 
CHAIRMAN, RANKING MEMBER AND MEMBERS OF THE 
SUBCOMMITTEE ON WORKFORCE PROTECTIONS, FROM THE UNION 
OF ORTHODOX JEWISH CONGREGATIONS OF AMERICA, APRIL 2, 
2003


125

Table of Indexes



Chairman Norwood, 2, 4, 6, 9, 11, 13, 15, 16, 17, 29
Mr. Bishop, 22, 23, 24
Mr. Dantico, 13, 20, 21, 22, 23, 25, 27
Mr. Isakson, 27, 29
Mr. Kline, 24, 25
Mr. Owens, 17, 18, 19, 20, 22, 32
Mr. Payne, 30, 31
Mr. Williams, 9, 17, 18, 19, 20, 21, 22, 23, 24
Mrs. Biggert, 20, 21, 22, 24, 25, 27, 29, 31, 32
Ms. Bravo, 19, 26
Ms. Martell, 9, 16, 17, 18, 21, 24, 26, 30, 31
Ms. Woolsey, 25, 26, 27



cxxii

121


</pre></body></html>
